                  Management Controls Over the Proof of
                 Concept Test of Earned Income Tax Credit
                    Certification Need to Be Improved

                                  December 2003

                       Reference Number: 2004-40-032




This report remains the property of the Treasury Inspector General for Tax Administration
 (TIGTA) and may not be disseminated beyond the Internal Revenue Service without the
                                permission of the TIGTA.
                                               DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                    December 19, 2003


       MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


       FROM:                          Gordon C. Milbourn III
                                      Acting Deputy Inspector General for Audit

       SUBJECT:                       Final Audit Report - Management Controls Over the Proof of
                                      Concept Test of Earned Income Tax Credit Certification Need
                                      to Be Improved (Audit # 200340047)


       This report represents the results of our review of the Proof of Concept Test for Earned
       Income Tax Credit (EITC) certification. The objective of the review was to determine if
       the Internal Revenue Service (IRS) has an effective process to test its Concept of
       Operations (CONOPs) for EITC certification and prepare for implementation of the Proof
       of Concept Test of EITC certification (the Test) for qualifying child residency
       requirements. Because of changes in the scope of the Test, the scope of this audit was
       limited to an evaluation of the IRS’ general planning and preparations to implement the
       Test.
       The EITC is a refundable credit available to taxpayers who file returns with certain
       earned income. Historically, the EITC Program has been vulnerable to high rates of
       noncompliance. Based on an IRS report, an estimated $8.5 to $9.9 billion (27 to
       32 percent) of the estimated $31 billion in EITC claims made by taxpayers in
       Tax Year 1999 should not have been paid.1 In February 2002, the Department of the
       Treasury and the IRS announced that a Task Force would study how the IRS
       administers the EITC, with the emphasis on improving EITC compliance. One of the
       recommendations of the Task Force was to require certain types of taxpayers who have
       been identified as at high risk of making erroneous EITC claims to verify that the
       children claimed for EITC purposes satisfy the credit’s relationship and residency




       1
           IRS report, Compliance Estimates for Earned Income Tax Credit on 1999 Returns, dated February 28, 2002.
                                                          2

requirements2 before the credit is allowed. The IRS plans to test the concept of EITC
certification for residency requirements during the 2004 Filing Season.3
The IRS concept for certifying EITC requirements includes systemically certifying as
many taxpayers as possible.4 The IRS accurately identified and used all the data in its
current computer databases that are necessary to systemically certify the qualifying
children of taxpayers claiming the EITC. In addition, the IRS used an appropriate
systematic sampling approach to select the sample for the Test and appropriately
validated the data. This should provide the IRS with some assurance that the actions of
the sampled taxpayers fairly represent the anticipated actions of the group of taxpayers
claiming the EITC from which the sample was selected.
During our audit period, the IRS recognized the need for consolidated executive
leadership of its EITC Program and appointed the Director, EITC, to lead the
administration of the Program. The IRS also made a number of changes to the scope
of the Test. However, as of September 11, 2003, the IRS had not developed
management reports to monitor the progress of the Test or established a process to
identify and track the costs, including dollars, associated with conducting the Test and
evaluating its results. Continued changes to the scope of the Test and insufficient
management controls can negatively affect the usefulness of the results. In addition,
the IRS has not established measures to analyze the success of the Test.
Subsequent to our testing, the IRS began taking steps to strengthen its controls over
the Test. For example, the IRS developed an EITC Proof of Concept Workplan to
monitor its progress toward completing key elements of the Proof of Concept Test.
While we did not evaluate the adequacy of the Workplan during this review, the
development of the plan is the first step toward improving the IRS’ oversight of the Test.
We understand that the IRS will continue to modify its EITC Proof of Concept Test as it
progresses. We plan to conduct additional audit work on the Test as part of our overall
Strategy on the IRS’ Implementation of the Earned Income Tax Credit Concept of
Operations.
We recommended that the Commissioner, Wage and Investment Division, strengthen
the controls over the Test to be able to effectively measure and analyze its success.
Management’s Response: IRS management agreed with our recommendation to
strengthen controls over the Test and identified a number of initiatives it has undertaken
since the completion of our audit work. However, management disagreed with our
conclusion concerning the establishment of performance measures for the Test. The
IRS stated that only through its Proof of Concept Test will it know to what extent it will



2
  Residency requirement refers to the requirement that the qualifying child lived with the taxpayer in the United
States for more than one-half of the year.
3
  The period from January through mid-April when most individual income tax returns are filed.
4
  Systemic certification occurs when the IRS uses all available data to determine if the taxpayer satisfies the
qualifying child residency and relationship requirements prior to contacting the taxpayer.
                                                         3

achieve the goal of reducing erroneous payments while maintaining participation.
Management’s complete response to the draft report is included as Appendix VI.
Office of Audit Comment: The Office of Management and Budget (OMB)5 defines
performance measures as either (1) a target level of performance expressed as a
tangible, measurable objective, against which actual achievement can be compared,
including a goal expressed as a quantitative standard, value, or rate, or (2) a particular
value or characteristic used to measure output or outcome. Without performance
measures (referred to as targets by the IRS) for the Proof of Concept Test, neither the
IRS nor its stakeholders will have sufficient information to determine if the concepts the
IRS is testing should be implemented into the IRS’ EITC Program. We do not plan to
elevate this disagreement to the Department of the Treasury for resolution.
Copies of this report are also being sent to the IRS managers who are affected by the
report recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 927-0597.




5
    OMB Circular No. A-11, Preparation, Submission, and Execution of the Budget (revised July 2003).
                       Management Controls Over the Proof of Concept Test
                  of Earned Income Tax Credit Certification Need to Be Improved




                                                  Table of Contents


Background ............................................................................................... Page 1
The Process Used to Select the Sample for the Test Reflects the
Process Outlined in the Future Vision ....................................................... Page 3
Continued Change Could Jeopardize the Usefulness of the Test ............. Page 4
Management Controls Over the Test Need to Be Improved...................... Page 6
         Recommendation 1: ....................................................................... Page 8

Appendix I – Detailed Objective, Scope, and Methodology ....................... Page 10
Appendix II – Major Contributors to This Report........................................ Page 12
Appendix III – Report Distribution List ....................................................... Page 13
Appendix IV – Earned Income Tax Credit Rules for Tax Year 2002.......... Page 14
Appendix V – Earned Income Tax Credit Tests for
Relationship and Residency Tax Year 2002.............................................. Page 15
Appendix VI – Management’s Response to the Draft Report .................... Page 16
                  Management Controls Over the Proof of Concept Test
             of Earned Income Tax Credit Certification Need to Be Improved

                                 The Earned Income Tax Credit (EITC) is a refundable credit
Background
                                 available to taxpayers who file returns with certain earned
                                 income. The requirements taxpayers must satisfy to qualify
                                 for the EITC can be found in Appendix IV.
                                 The Congress has long been concerned with the
                                 administration of the EITC Program. Erroneous EITC
                                 claims are a source of significant loss of revenue for the
                                 Federal Government. In its Tax Year (TY) 1999
                                 compliance study, the Internal Revenue Service (IRS)
                                 estimated that between $8.5 and $9.9 billion (27 to
                                 32 percent) of the $31 billion in EITC claimed for TY 1999
                                 should not have been paid.1 Taxpayers claiming a child who
                                 did not meet the qualifications for the EITC was one of the
                                 main causes of these errors.
                                 The Department of the Treasury and the IRS announced on
                                 February 28, 2002, that a Task Force would examine the
                                 administration and complexity of the EITC. The Treasury
                                 Assistant Secretary for Tax Policy and the IRS
                                 Commissioner headed the Task Force. It focused on
                                 compliance and administrative issues stemming from the
                                 complexity of the EITC. The Task Force used the TY 1999
                                 compliance study as the basis for its recommendations. The
                                 IRS used these recommendations to develop a future vision
                                 for administering the EITC. This vision is outlined in the
                                 IRS’ EITC Concept of Operations (CONOPs).
                                 One of the Task Force recommendations was to ask
                                 taxpayers who claim the EITC and meet certain criteria to
                                 verify that the children claimed on the returns meet the
                                 EITC residency and relationship requirements before the
                                 taxpayers receive the credit. See Appendix V for an
                                 explanation of these requirements. The IRS’ CONOPs
                                 outlines three ways taxpayers can prove or certify their
                                 eligibility for the EITC based on the relationship and
                                 residency requirements:
                                 1. A taxpayer can provide supporting documentation
                                    before the tax return is filed (precertification).



                                 1
                                  IRS report, Compliance Estimates for Earned Income Tax Credit on
                                 1999 Returns, dated February 28, 2002.
                                                                                             Page 1
     Management Controls Over the Proof of Concept Test
of Earned Income Tax Credit Certification Need to Be Improved

                    2. A taxpayer can include the supporting documentation
                       with the tax return when the return is filed.
                    3. A taxpayer can provide the supporting documentation in
                       response to an IRS request after the tax return has been
                       filed.
                    According to the CONOPs, the IRS’ intent is to get the
                    majority of qualifying taxpayers to precertify for the EITC,
                    to help ensure the taxpayers’ refunds are not delayed once
                    the returns are filed and the refunds are processed.2
                    The first step the IRS is taking to implement its future
                    vision for EITC certification is to test the basic concepts
                    outlined in the CONOPs. This test is referred to as a Proof
                    of Concept Test and is intended to provide the IRS with
                    information necessary to either modify or validate the
                    certification concept outlined in the CONOPs. The Proof of
                    Concept Test consists of three parts designed to test
                    concepts for improving EITC compliance:
                    •   A test of the qualifying child(ren) residency
                        requirements (certification).
                    •   A test of filing status requirements.
                    •   A test of underreported income.
                    This audit focused on the Proof of Concept Test of EITC
                    certification and is referred to as “the Test” for the purposes
                    of this report.
                    The IRS originally planned to test the precertification
                    outlined in its CONOPs (number 1 above) during the
                    summer of 2003. The IRS has since changed the scope of
                    its Test. The changes the IRS made to its Test are provided
                    in Table 1. As a result of these changes, the IRS is no
                    longer testing its concept of EITC precertification.




                    2
                      A taxpayer may still be denied the EITC once the tax return is filed
                    based on other EITC requirements that must be met. See Appendix IV
                    for details of these requirements.
                                                                                    Page 2
                    Management Controls Over the Proof of Concept Test
               of Earned Income Tax Credit Certification Need to Be Improved

                                            Table 1: Changes to the IRS Proof of Concept Test
                                                         of EITC Certification

                                              Original Test                        Revised Test

                                    Test residency and relationship       Test residency requirements.
                                    requirements.

                                    Ask for documentation during the      Ask for documentation when
                                    summer, before the tax return is      the return is filed (after
                                    filed (precertification).             January 1, 2004).

                                    Test a sample of 45,000 taxpayers.    Test a sample of 25,000
                                                                          taxpayers.

                                   Source: Various IRS press releases, public news articles, and
                                   discussions with IRS representatives.

                                   The IRS also recognized the need for consolidated executive
                                   leadership of its EITC Program. In early September 2003,
                                   the IRS appointed the Director, EITC, to lead the
                                   administration of the EITC Program.
                                   The overall objective of this audit was to determine if the
                                   IRS has an effective process to test its CONOPs for EITC
                                   certification and prepare for implementation of the Test of
                                   residency requirements. Because of changes in the scope of
                                   the Test, the scope of this audit was limited to an evaluation
                                   of the IRS’ general planning and preparations to implement
                                   the Test.
                                   This audit was performed between April and
                                   September 2003. Testing was conducted in the IRS’ Office
                                   of the Commissioner, the Office of Research Analysis and
                                   Statistics, and the Office of Modernization and Information
                                   Technology Services in Washington, D.C., and the Wage
                                   and Investment Division’s EITC Office in Atlanta, Georgia.
                                   The audit was conducted in accordance with Government
                                   Auditing Standards. Detailed information on our audit
                                   objective, scope, and methodology is presented in
                                   Appendix I. Major contributors to the report are listed in
                                   Appendix II.
                                   During its preparations for the Test, the IRS used an
The Process Used to Select the     appropriate systematic sampling approach to select the
Sample for the Test Reflects the   sample and appropriately validated data. In its future vision
Process Outlined in the Future     for the EITC Program, the IRS plans to systemically certify
Vision                             taxpayers for the EITC based on current EITC qualifying
                                                                                                    Page 3
                     Management Controls Over the Proof of Concept Test
                of Earned Income Tax Credit Certification Need to Be Improved

                                    requirements for residency and data the IRS currently has on
                                    the taxpayers in its various computer databases. Taxpayers
                                    who cannot be systemically certified, because the
                                    information is either not available or is inconclusive, would
                                    be subject to a manual certification process. The systemic
                                    certification process the IRS used to identify the sample for
                                    its Test reflects the process outlined in its future vision for
                                    the EITC Program.
                                    The IRS accurately identified and used all the data in its
                                    current computer databases that are necessary to
                                    systemically certify the qualifying children of taxpayers
                                    claiming the EITC. As part of this systemic certification
                                    process, the IRS also identified taxpayers who, based on
                                    past compliance studies, are at high risk of making
                                    erroneous claims for the EITC. The IRS then used a
                                    systematic sampling approach to select a sample of
                                    25,000 taxpayers from the high-risk group for the Test.
                                    The IRS validated that the taxpayers identified for both
                                    manual certification and the sample were similar in the
                                    percentage of male/female taxpayers, the filing status
                                    claimed, and the state in which the taxpayer filed the return.
                                    The IRS also validated the accuracy of the systemic
                                    certification determinations after each source of data was
                                    used and after the final determinations were made. The
                                    accuracy of the determination that a taxpayer would be
                                    subject to manual certification was also validated. This
                                    should provide the IRS with some assurance that the actions
                                    of the sampled taxpayers fairly represent the anticipated
                                    actions of the group of taxpayers claiming the EITC from
                                    which the sample was selected.
                                    Testing the concept of EITC certification is a commendable
Continued Change Could
                                    effort. However, the IRS did not consider all the risks when
Jeopardize the Usefulness
                                    it did not obtain input from the Congress and other
of the Test
                                    stakeholders, such as community-based low-income tax
                                    assistance programs and the American Bar Association,
                                    until after it had begun to implement the Test. After
                                    receiving responses from the Congress and stakeholders, the
                                    IRS revised the Test. We are concerned that the continued
                                    state of change related to the Test could jeopardize its
                                    usefulness.


                                                                                            Page 4
     Management Controls Over the Proof of Concept Test
of Earned Income Tax Credit Certification Need to Be Improved

                    The General Accounting Office’s (GAO) Standards for
                    Internal Control in the Federal Government state internal
                    controls should provide for an assessment of the risks an
                    agency faces from both internal and external sources. Once
                    risks have been identified, they should be analyzed for their
                    possible effect. One factor to be considered is whether
                    consideration was given to risks arising from changing
                    needs or expectations of the Congress, agency officials, and
                    the public.
                    The IRS established goals and objectives for the Test but
                    did not identify all risks that could impede the efficient and
                    effective achievement of those objectives before expending
                    resources to prepare for the implementation of the Test. As
                    a result of concerns raised by the Congress and other
                    stakeholders, the IRS changed the scope of the Test.
                    Table 2 illustrates the timeline and scope of the changes the
                    IRS made to the Test.
                                     Table 2: IRS Timeline for Changes to the
                                    Proof of Concept Test of EITC Certification

                           Date                             Action Taken

                        April 2003       The Congress learns of plans to test precertification
                                         of the EITC residency and relationship requirements
                                         for 45,000 taxpayers. The Test is scheduled to
                                         begin in August 2003.

                        June 2003        The IRS Commissioner formally announces the
                                         IRS will pilot an EITC certification effort.
                                         The announcement states the Test will involve
                                         45,000 taxpayers and will be limited to a residency
                                         certification.

                        June 2003        The IRS announces a 30-day period in which
                                         interested parties can provide comments on its plan
                                         to precertify taxpayers for the EITC.

                        August 2003      The IRS announces it will now ask
                                         25,000 taxpayers to certify eligibility for residency
                                         requirements when they file their returns. The Test
                                         will begin in the 2004 Filing Season.3

                    Source: Various IRS press releases and public news articles.

                    3
                      The period from January through mid-April when most individual
                    income tax returns are filed.
                                                                                        Page 5
                 Management Controls Over the Proof of Concept Test
            of Earned Income Tax Credit Certification Need to Be Improved

                                In addition to the changes described in Table 2, changes in
                                the forms and correspondence requesting the supporting
                                documentation were also recommended but had not yet been
                                finalized.
                                If the IRS continues to make significant changes to the Test,
                                it may not have adequate time to incorporate those changes
                                before the Test is scheduled to begin. As a result, the Test
                                may not provide the IRS with sufficient information from
                                which it can make an informed decision about the expansion
                                of the certification process. We understand that the IRS will
                                continue to modify its EITC Proof of Concept Test as it
                                progresses. We plan to conduct additional audit work on the
                                Test as part of our overall Strategy on the IRS’
                                Implementation of the Earned Income Tax Credit Concept
                                of Operations.
                                The IRS needs to establish additional controls such as
Management Controls Over the
                                quantifying goals, establishing measures, and improving
Test Need to Be Improved
                                oversight of and management information systems for the
                                Test. Office of Management and Budget (OMB) Circular
                                A-1234 states, “Agency managers shall incorporate basic
                                management controls in the strategies, plans, guidance, and
                                procedures that govern their programs and operations.”
                                Management controls include processes for planning,
                                organizing, directing, and controlling program operations.
                                In addition, the GAO Standards for Internal Control in the
                                Federal Government state that for an entity to run and
                                control its operations, it must have relevant, reliable, and
                                timely information.
                                Measures have not been established for the Test
                                While the IRS has established a goal for the Test, it has not
                                established what measures are necessary to analyze the
                                success of the Test. The IRS informed us that the current
                                Test is a statistical exercise, the purpose of which is to
                                gather information about how taxpayers behave when the
                                IRS does certain things. Therefore, the IRS does not believe
                                it needs to establish measures at this time but should instead
                                attempt to establish a baseline against which to measure
                                future efforts.

                                4
                                  OMB Circular A-123, Management Accountability and Control
                                (revised, dated June 21, 1995).
                                                                                          Page 6
     Management Controls Over the Proof of Concept Test
of Earned Income Tax Credit Certification Need to Be Improved

                    We agree that the purpose of the Test is to evaluate taxpayer
                    behavior and that no one factor, but rather a combination of
                    factors, would be required to either validate or refute the
                    IRS’ concept for EITC certification. However, the IRS
                    needs to determine what combination of factors is necessary
                    and what level of activity those factors need to achieve to
                    justify continuing its long-range plans to certify EITC
                    eligibility. Without such measures, neither the IRS nor the
                    Congress can evaluate the effectiveness of the Test.
                    Oversight controls for the Test have been limited
                    Although the IRS had taken steps to identify the information
                    necessary to evaluate the Test results, the IRS was not able
                    to provide sufficient documentation that it had established a
                    process to provide on-going management oversight of the
                    Test. As of September 11, 2003, the IRS had not developed
                    management reports to monitor the progress of the Test or
                    established a process to identify and track the costs,
                    including dollars, associated with conducting the Test and
                    evaluating its results.
                    Without these processes, the IRS cannot ensure that the Test
                    is being conducted effectively and that resources are being
                    allocated efficiently. It also has little assurance that the
                    information it collects on the 50,000 EITC taxpayer
                    accounts5 being monitored as part of the Test is reliable.
                    The IRS has identified a number of data elements it plans to
                    capture during the Test to evaluate its results. The IRS also
                    has a detailed plan outlining how it plans to collect and
                    evaluate the data at the conclusion of the Test. For example,
                    the IRS selected a second sample of 25,000 taxpayers as a
                    control group that will not be asked to certify the EITC
                    residency requirement, so it can compare taxpayer behavior
                    between the 2 samples.
                    The IRS acknowledged the need to have a documented plan
                    and an oversight process. However, the IRS believes that its
                    plan to implement the Test in the 2004 Filing Season


                    5
                     The IRS will ask 25,000 taxpayers to provide certification documents
                    as part of the test. The IRS will also capture data on an additional
                    25,000 taxpayers who are not contacted so it can compare taxpayer
                    behavior.
                                                                                   Page 7
     Management Controls Over the Proof of Concept Test
of Earned Income Tax Credit Certification Need to Be Improved

                    requires it to focus instead on the steps needed to implement
                    the Test; for example, identifying needed changes to its
                    computer systems and drafting the correspondence that will
                    be sent to taxpayers. Therefore, while the IRS recognizes
                    the need for a documented plan and oversight process, it has
                    not prioritized either.
                    We agree that the IRS needs to prioritize its preparations for
                    the certification test to meet the planned implementation
                    date. However, it is critical that sufficient management
                    controls and program oversight be established before the
                    planned implementation date of the Test.
                    Subsequent to our testing, the IRS took steps to strengthen
                    its controls over the Test. For example, the IRS developed
                    an EITC Proof of Concept Workplan to monitor its progress
                    toward completing key elements of the Proof of Concept
                    Test. While we did not evaluate the adequacy of the
                    Workplan during this review, its development is the first
                    step toward improving the IRS’ oversight of the Test.

                    Recommendation

                    The Commissioner, Wage and Investment Division, should:
                    1. Strengthen the controls over the Proof of Concept Test
                       of EITC certification to be able to effectively measure
                       and analyze the success of the Test.
                    Management’s Response: IRS management agreed with our
                    recommendation and identified a number of initiatives it has
                    undertaken since the completion of our audit work.
                    However, management disagreed with our conclusion
                    concerning the establishment of performance measures for
                    the Test. The IRS indicated it has stressed the importance
                    of establishing a robust suite of measures from the inception
                    of the Test. It also responded that the ultimate decision on
                    how to proceed with the administration of the EITC would
                    take place only after in-depth evaluation and consultation
                    with its numerous stakeholders.




                                                                           Page 8
     Management Controls Over the Proof of Concept Test
of Earned Income Tax Credit Certification Need to Be Improved

                    Office of Audit Comment: OMB Circular Number A-116
                    defines performance measures as either (1) a target level of
                    performance expressed as a tangible, measurable objective,
                    against which actual achievement can be compared,
                    including a goal expressed as a quantitative standard, value,
                    or rate, or (2) a particular value or characteristic used to
                    measure output or outcome. Without performance measures
                    (referred to as targets by the IRS) for the Proof of Concept
                    Test, neither the IRS nor its stakeholders will have sufficient
                    information to determine if the concepts the IRS is testing
                    should be implemented into the IRS’ EITC Program.




                    6
                      OMB Circular No. A-11, Preparation, Submission, and Execution of
                    the Budget (revised July 2003).



                                                                                Page 9
                  Management Controls Over the Proof of Concept Test
             of Earned Income Tax Credit Certification Need to Be Improved

                                                                                     Appendix I


                      Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine if the Internal Revenue Service (IRS) has
an effective process to test its Concept of Operations (CONOPs) for Earned Income Tax Credit
(EITC) certification and prepare for implementation of the Proof of Concept Test of EITC
certification (the Test) for qualifying child residency requirements. Because of changes in the
scope of the Test, the scope of this audit was limited to an evaluation of the IRS’ general
planning and preparations to implement the Test. We performed the following audit tests:
I.     To determine whether the design and purpose of the Test were clear and properly aligned
       with the IRS’ goals for the planned EITC precertification program, we evaluated whether
       the IRS’ plan for the Test was logical, considering the current conditions and nature of
       the problem, and whether it is likely to yield the intended outcomes. We also evaluated
       the design of the Test to determine if it supports the business case for the EITC Task
       Force recommendations and determined if the IRS is tracking a control group for
       behavior comparison.
II.    To determine whether the IRS has set valid goals that focus on results and reflect the
       purpose of the Test, we identified the goals for the Test by reviewing the CONOPs,
       Evaluation Plan, and IRS Press Release IR-2003-97. We also identified key concepts in
       the certification process outlined in the CONOPs that are necessary to successfully test
       the certification concept (per the Test goals).
III.   To determine whether the EITC precertification Test Plan has sufficient elements of
       performance management to meet its goals and objectives, we analyzed the IRS’
       evaluation methodology. We determined whether the evaluation methodology included
       overall goals for the results of the Test, a method to gather the information needed to
       quantify the results of the Test, a method to compute the results of the Test, and a method
       to identify and track costs related to conducting the Test and evaluating the Test results.
       In addition, we determined whether the evaluation methodology included a method to
       assess whether the results of the Test support the business case for the EITC Task Force
       recommendations. We also identified the data available for management oversight and
       monitoring of the Test and analyzed the method the IRS plans to use to gather data and
       quantify the results of the Test to ensure the method is sound.
IV.    To determine if the methodology for the Test accurately reflects the systemic certification
       process, the identification of taxpayers for the manual certification process, and the
       sample selection process for the test group of taxpayers, we determined if the method
       used to systemically certify taxpayers for the Test aligns with the concept of systemic
       certification. We also reviewed the CONOPs and interviewed IRS personnel to
       determine if all taxpayers who cannot be systemically certified will be subjected to
       manual certification. In addition, we identified the criteria used to select the
                                                                                          Page 10
           Management Controls Over the Proof of Concept Test
      of Earned Income Tax Credit Certification Need to Be Improved

25,000 taxpayers for the manual certification test and analyzed the selection criteria to
determine if it is representative of the population and meets the criteria of the Test Plan.
We also determined if the IRS validated the accuracy of the selection of the
25,000 taxpayers and assessed the adequacy of the validation process.




                                                                                      Page 11
                  Management Controls Over the Proof of Concept Test
             of Earned Income Tax Credit Certification Need to Be Improved

                                                                                Appendix II


                           Major Contributors to This Report

Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Augusta R. Cook, Director
Deann L. Baiza, Audit Manager
David L. Hartman, Senior Auditor
Kathleen A. Hughes, Senior Auditor
Sharla J. Robinson, Senior Auditor
Karen C. Fulte, Auditor
Sandra L. Hinton, Auditor




                                                                                         Page 12
                 Management Controls Over the Proof of Concept Test
            of Earned Income Tax Credit Certification Need to Be Improved

                                                                             Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Chief, Information Technology Services OS:CIO:I
Director, Earned Income Tax Credit, Wage and Investment Division SE:W:EITC
Director, Office of Research, Analysis, and Statistics RAS
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: GAO/TIGTA Liaison, Wage and Investment Division SE:W:S:PA




                                                                                  Page 13
                     Management Controls Over the Proof of Concept Test
                of Earned Income Tax Credit Certification Need to Be Improved

                                                                                                 Appendix IV


                      Earned Income Tax Credit Rules for Tax Year 2002

Below is a general description of the qualifications taxpayers must meet to be eligible for the
Earned Income Tax Credit (EITC). A detailed description of these rules can be found in the
Internal Revenue Service publication Earned Income Credit (Publication 596).
Everyone must meet all of the following rules:
    •   You must have a valid Social Security Number.
    •   Your filing status cannot be “married filing separately.”
    •   You must be a United States citizen or resident alien all year.
    •   You cannot file Foreign Earned Income (Form 2555) or Foreign Earned Income
        Exclusion (Form 2555-EZ).
    •   Your investment income must be $2,550 or less.
    •   You must have earned income.
Rules to meet if you have a qualifying child (must meet all):
    •   Your child must meet the relationship, age, and residency tests (see Appendix V for a
        further explanation of the relationship and residency tests).
    •   Your qualifying child cannot be used by more than one person to claim the EITC.
    •   You cannot be a qualifying child of another person.
Rules to meet if you do not have a qualifying child (must meet all):
    •   You must be at least age 25 but under age 65.
    •   You cannot be the dependent of another person.
    •   You cannot be a qualifying child of another person.
    •   You must have lived in the United States more than one-half of the year.
Figuring and claiming the EITC (must meet both rules):
    •   Your adjusted gross income1 must be less than:
        • $33,178 ($34,178 for married filing jointly) if you have more than 1 qualifying child.
        • $29,201 ($30,201 for married filing jointly) if you have 1 qualifying child.
        • $11,060 ($12,060 for married filing jointly) if you do not have a qualifying child.
    •   Your earned income must be less than:
        • $33,178 ($34,178 for married filing jointly) if you have more than 1 qualifying child.
        • $29,201 ($30,201 for married filing jointly) if you have 1 qualifying child.
        • $11,060 ($12,060 for married filing jointly) if you do not have a qualifying child.

1
 Adjusted Gross Income is a taxpayer’s gross income for the year adjusted for certain exclusions from income
provided for in the Internal Revenue Code.
                                                                                                         Page 14
                    Management Controls Over the Proof of Concept Test
               of Earned Income Tax Credit Certification Need to Be Improved

                                                                                     Appendix V


                                Earned Income Tax Credit
                           Tests for Relationship and Residency
                                       Tax Year 2002

Below is a general description of the relationship and residency requirements (for children
claimed on a return) that taxpayers must meet to be eligible for the Earned Income Tax Credit.
These qualifications can be found in the Internal Revenue Service publication Earned Income
Credit (Publication 596).
Relationship
A qualifying child is a child who is your:
   •   Son.
   •   Daughter.
   •   Adopted child.
   •   Foster child.
   •   Stepchild.
   •   Grandchild.
   •   Sister.*
   •   Brother.*
   •   Stepsister.*
   •   Stepbrother.*

       * This relative (or his or her child or grandchild) qualifies if you care for the individual
         as you would your own child.
Residency
A qualifying child is a child who lived with you in the United States for more than one-half of
the year.




                                                                                            Page 15
     Management Controls Over the Proof of Concept Test
of Earned Income Tax Credit Certification Need to Be Improved

                                                                Appendix VI


       Management’s Response to the Draft Report




                                                                     Page 16
     Management Controls Over the Proof of Concept Test
of Earned Income Tax Credit Certification Need to Be Improved




                                                                Page 17
     Management Controls Over the Proof of Concept Test
of Earned Income Tax Credit Certification Need to Be Improved




                                                                Page 18
